  DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General

    Audit of Access to Airport Secured Areas 

            (Unclassified Summary) 





OIG-07-35                           March 2007
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                 March 15, 2007


                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of airport operators and air carriers in preventing
access by unauthorized persons to defined secured areas of the airport. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations in the report have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is our hope
that this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report




                                      Richard L. Skinner 

                                      Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Background
                Airport operators and aircraft operators each have responsibilities under the
                Code of Federal Regulations, and their respective approved security programs,
                to meet certain security requirements. Among these requirements is the
                responsibility to prevent access by unauthorized persons to defined secured
                areas of the airport. Transportation Security Administration (TSA)
                regulations require personnel who enter the Security Identification Display
                Area (SIDA) and other secured areas of the airport to have an airport issued or
                approved SIDA badge properly displayed on their person or to be under
                escort. No airport operator may grant unescorted access to the secured area or
                SIDA to any individual unless that person has successfully completed training
                according to a TSA approved curriculum specified in the airport security
                program. The curriculum must include: (1) the unescorted access authority of
                the individual to enter and be present in various areas of the airport; (2) the
                control, use, and display of airport approved access and identification media;
                and (3) escort and challenge procedures, and the law enforcement support for
                these procedures.

                We performed access control testing at 14 domestic airports of various sizes
                nationwide. Altogether, our four-person team conducted more than 600
                access control tests.

Results of Audit
                We identified various weaknesses in TSA’s procedures to prevent
                unauthorized individuals from access to secured airport areas. We made
                several recommendations that, if implemented by TSA, airport operators, and
                air carriers, can enhance the overall effectiveness of controls that limit access
                to airport secured areas.

TSA’s Response

                TSA said that all of our recommendations highlight areas of interest to TSA.
                TSA provided an extensive response to our draft report, describing actions
                that it has already taken to address each of our recommendations.


                   Audit of Access to Airport Secured Areas (Unclassified Summary) 


                                               Page 1 

TSA fully concurred with all but one of our recommendations, which is
discussed here. Although TSA also concurred with our recommendation that
the TSA Assistant Secretary deploy available technology to detect explosives
on passengers at airports nationwide for continuous random screening of
passengers in addition to use on selectees, it offered extensive explanation of
the significant efforts that have been underway at TSA for more than
18 months to improve the performance of Transportation Security Officers
(TSOs).

The following summarizes TSA’s response to our draft report. We did not
validate this information because TSA provided it after completion of our
review.

TSA approved immediate, mid-term, and long-term steps to counter the threat
in August 2005. The short and mid-term strategies would have to yield IED
solutions that were people-based, not equipment or technology-based.
Accordingly, TSA’s strategy is to rely on the TSOs to enhance checkpoint
detection capability. A key part of this reliance on the TSOs was to train,
equip, and empower them; trust their judgment, and guide them away from a
script-based system of security and into a model where their judgment,
discretion, and experience mattered.

Also, TSA took immediate steps to build on TSO performance by instituting
randomness as a cornerstone of its security posture. For example, TSA
recently implemented a passenger checkpoint enhancement called
Unpredictable Screening Procedures. This change provides a structure for
random sampling of carry-on bags with Explosives Trace Detection
equipment.

TSA also implemented the Aviation Direct Access Screening Program
(ADASP). ADASP allows TSOs to randomly screen airport and airline
employees, their accessible property, and their vehicles as they enter airport
restricted areas other than through a screening checkpoint.

In addition, TSA implemented a behavior recognition program called
Screening Passengers by Observation Techniques (SPOT), which focuses on
behavior observation and analysis. SPOT is currently operational at many of
our Nation’s airports, and TSA is executing an aggressive plan to implement
the program at all major airports by the end of the year.

Also, TSA is implementing IED Checkpoint Screening Drills. These drills
will expose TSOs to simulated threat items in a regular and standardized way
through hands-on training at the checkpoint. As part of this program, TSOs
will also be routinely exposed to simulated threat items without warning.
These exercises will be conducted daily, and, once fully implemented, TSA

 Audit of Access to Airport Secured Areas (Unclassified Summary) 


                             Page 2 

expects more than 50,000 drills to be conducted at airports around the country
each month.

Finally, TSA’s covert testing program includes screening checkpoint testing,
checked baggage testing, and access testing of restricted areas of commercial
airports. These tests employ a variety of methods of inserting prohibited
items into the sterile area that mimic real-world possibilities based on the most
current intelligence available. In it’s testing, TSA continues to adapt
procedures to accommodate the deployment of new security screening
technologies and procedures.

As part of its long range strategy, TSA is actively pursuing security initiatives
that it characterizes as the “Checkpoint of the Future.” This includes
developing technologies that, when fielded, will reduce the vulnerabilities that
we identified in our report. These technologies include backscatter and multi-
view x-rays at the checkpoint for both passengers and their carry-on baggage.




 Audit of Access to Airport Secured Areas (Unclassified Summary) 


                             Page 3 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL STOP
2600, Attention: Office of Investigations – Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528; fax the complaint to (202) 254-4292; or
email DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each
writer and caller.
